TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Evaluation of Planning Efforts for the
                   Issuance of Economic Stimulus Payments



                                           July 31, 2008

                              Reference Number: 2008-40-149




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 July 31, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Evaluation of Planning Efforts for the Issuance of
                                 Economic Stimulus Payments (Audit # 200840030)

 This report presents the results of our review to evaluate the effectiveness of the Internal
 Revenue Service’s (IRS) efforts to plan and implement the 2008 economic stimulus payments.
 The scope of this review was limited to an assessment of the IRS’ efforts to plan for the
 implementation of the stimulus payments and is based on actions taken by the IRS as of
 April 1, 2008. This review is the first in a series of reviews designed to provide Congress with
 an ongoing status of the IRS’ implementation of the economic stimulus payments.

 Impact on the Taxpayer
 The most significant part of the Economic Stimulus Act of 20081 is the individual stimulus
 payment. The IRS expects to issue more than $100 billion in stimulus payments to more than
 130 million households. Recognizing that the stimulus payments would affect millions of
 individuals, the IRS designed a wide-reaching media campaign focused on educating individuals
 on the requirements to receive the stimulus payment along with ways to receive assistance.
 Although the IRS’ planning for the stimulus payments was generally sufficient, we noted areas
 where improvements were needed. Management addressed our concerns in a timely manner,
 which helped to ensure the accuracy and consistency of information provided externally and




 1
     Pub. L. 110-185, 122 Stat. 613.
                      Evaluation of Planning Efforts for the Issuance of Economic
                                          Stimulus Payments



internally and reduced the risk of errors when stimulus-only returns2 were processed and
payments were issued.

Synopsis
The Economic Stimulus Act of 2008 was passed to energize the national economy. The stimulus
payment is a credit for Tax Year 2008. However, the payments are being estimated using
income figures reported on Tax Year 2007 tax returns and will be issued in 2008 so individuals
can benefit from the payments as soon as possible. Prior
to Congress’ finalizing of the Economic Stimulus Act of         Because Congress expected
2008, the IRS established an Executive Steering              stimulus payments to be issued
Committee to coordinate the identification of all affected   as soon as possible, the IRS did
IRS functions, programs, and procedures. The Committee          not have the option to delay
                                                               implementation until after the
also performed assessments of how the IRS would handle              2008 Filing Season.3
the additional work required to implement the stimulus
payments.3
The IRS designed a wide-reaching media campaign to educate individuals about the
requirements to receive the stimulus payments along with ways to receive assistance. This
campaign included media contacts, public service announcements, information on the IRS web
site, issuance of advance notices, and partnering with external Federal Government agencies and
organizations. The IRS also established tools to provide assistance to the anticipated thousands
of individuals who would contact the IRS with stimulus payment questions. This assistance had
to be provided without harming service to taxpayers who were in the process of filing their
annual income tax returns.
As of March 29, 2008, the IRS had received approximately 1.6 million returns (1.4 million paper
and 215,000 electronic) filed only to claim the stimulus payment.4 The IRS had processed
approximately 500,000 of these returns through March 29, 2008. However, a backlog of
stimulus-only returns existed because the IRS had to devote its resources to processing more than
37 million returns on which refunds were owed to the taxpayers. Refund returns must be
processed within 45 calendar days of receipt to prevent the payment of interest.
Although the IRS’ planning for the stimulus payments was generally sufficient, there were areas
where improvements were needed. Some IRS functions had not developed sufficient Action
Plans, and there was no consolidated review process in place to ensure that the information and
guidance being shared internally and externally were consistent and accurate. These issues could

2
  Returns filed only to claim the stimulus payment.
3
  The period between January and mid-April when most individual income tax returns are filed.
4
  The 1.6 million returns figure excludes an estimated 800,000 returns filed prior to the IRS separately identifying
stimulus-only returns.
                                                                                                                       2
                     Evaluation of Planning Efforts for the Issuance of Economic
                                         Stimulus Payments



have increased the risk of errors when stimulus-only returns were filed and processed and
payments were issued. IRS management addressed these concerns as we brought them to their
attention.
In addition, we identified a number of instances where information being distributed externally
and internally was inconsistent or incomplete. For example, guidance provided on IRS.gov and
to Taxpayer Assistance Center5 employees on what individuals needed to do to file a
                                        stimulus-only return was not consistent. We shared our
        Information distributed         concerns with the Executive Steering Committee during
   externally and internally was not    the course of our audit, and actions were initiated to
   always consistent and complete.      address most of the concerns. Although the IRS had
                                        established an Executive Steering Committee to coordinate
                                        the planning for the stimulus payments, each IRS function
was responsible for creating and disseminating information relative to its area of responsibility.
Many of the concerns we raised could have been prevented if information had been reviewed by
a central point to ensure its consistency and completeness.
We also identified concerns with the IRS’ plans to address stimulus payments on fraudulent Tax
Year 2007 returns on which a determination of fraud was made after the refunds were issued,
and to identify potentially fraudulent stimulus-only returns. We are evaluating the Criminal
Investigation Division’s efforts to address these concerns.

Response
We made no recommendations in this report. IRS management did respond to provide additional
perspective on agency efforts. Management’s complete response to the draft report is included
as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




5
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                                  3
                          Evaluation of Planning Efforts for the Issuance of Economic
                                              Stimulus Payments




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          A Number of Methods Were Used to Inform and Notify All Eligible
          Individuals and Households About Stimulus Payments ...............................Page 4
          Actions Were Taken to Reduce the Risk of Errors Associated With the
          Filing and Processing of Stimulus-Only Returns and the Issuance of
          Payments .......................................................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
      Evaluation of Planning Efforts for the Issuance of Economic
                          Stimulus Payments




                    Abbreviations

IRS           Internal Revenue Service
TY            Tax Year
                         Evaluation of Planning Efforts for the Issuance of Economic
                                             Stimulus Payments




                                                 Background

The Economic Stimulus Act of 2008,1 signed on February 13, 2008, was passed to energize the
national economy. The most significant part of the Act is the individual stimulus payment,
which is a credit for Tax Year (TY) 2008. However, the
payments are being estimated using information reported      The IRS expects to issue more
on TY 2007 tax returns and will be issued in 20082 so          than $100 billion in stimulus
individuals can benefit from the payments as soon as             payments to more than
possible. Individuals who qualify for a larger payment           130 million households.
as a result of changes between their TYs 2007 and
2008 returns will receive the additional payment when
they file their TY 2008 returns (generally between January and April 2009). Individuals who
receive more than they would have if the payment had been calculated using information from
their TY 2008 returns will not be asked to pay the excess back. The stimulus payment will not
increase the amount of tax an individual owes or reduce an individual’s refund for TY 2008.
To receive a stimulus payment, individuals must have an income tax liability or at least $3,000 in
qualifying income. Income from wages, tips, and net self-employment earnings as well as
nontaxable combat pay and some Social Security, Veterans disability, and Railroad Retirement
benefits qualifies as eligible income. Individuals must file a 2007 tax return with a valid Social
Security Number to receive the payment. The Internal Revenue Service (IRS) estimates that an
                                        additional 20 million individuals who do not normally
                                        need to file a tax return will file a TY 2007 return to claim
       To qualify for a stimulus        the stimulus payment.
      payment, individuals must have
      an income tax liability or $3,000For most individuals, the amount of the stimulus payment
     in qualifying income as well as a received is dependent on their net income tax liability.
       valid Social Security Number.
                                       Single taxpayers will generally receive the greater of $300
                                       or their actual tax liability up to $600, and couples will
                                       generally receive the greater of $600 or their actual tax
liability up to $1,200. Anyone with qualifying children will also receive an additional $300 per
child. A qualifying child is any child who is under the age of 17 as of December 31, 2007, and
who can be claimed for purposes of the Child Tax Credit. The stimulus payment also phases out
for higher income taxpayers. Figure 1 provides an overview of the provisions of the Economic
Stimulus Act of 2008.



1
    Pub. L. 110-185, 122 Stat. 613.
2
    Unless otherwise noted, all dates in this report are calendar year.
                                                                                              Page 1
                      Evaluation of Planning Efforts for the Issuance of Economic
                                          Stimulus Payments



                Figure 1: Provisions of the Economic Stimulus Act of 2008

                   Provision                                                Details
 General Payment Provision                       10 percent of the first $6,000 of taxable income ($12,000 for
                                                 couples), to extent of tax liability; maximum $600/$1,200,
                                                 minimum $300/$600.
 Refundability Provision                         $300 stimulus payment ($600 for couples) available for
                                                 those without tax liability if earned income plus Social
                                                 Security benefits, some Railroad Retirement benefits, and
                                                 Veterans disability payments are at least $3,000.3
 High-Income Phase-out Provision                 Payment phased out at 5 percent of Adjusted Gross Income
                                                 greater than $75,000 for single individuals and $150,000 for
                                                 couples. Payment fully phased out at $87,000 for singles
                                                 and $174,000 for couples. The phase-out range increases
                                                 for couples with qualifying children.
 Child Provision                                 $300 per qualifying child if eligible for any other stimulus
                                                 payment. Eligibility criteria are the same as for the Child
                                                 Tax Credit.
 Other Features                                  Disallows the stimulus payment to illegal immigrants by
                                                 requiring a Social Security Number.

Source: Congressional Research Service Report “Tax Provisions of the Economic Stimulus Package” issued on
March 27, 2008.

 Implementing the economic stimulus payment presented two significant challenges for the IRS.
     •   The process for issuing payments had to be implemented at the same time the IRS was
         processing an estimated 140 million individual income tax returns as part of its annual
         filing season.4
     •   All affected programs and computer systems had to be modified in a relatively short time
         period to satisfy the intent of Congress to issue the payments to individuals as soon as
         possible.
 This review was performed at the IRS National Headquarters, the Wage and Investment and
 Criminal Investigation Divisions, and the Modernization and Information Technology Services
 organization in Washington, D.C., during the period January through April 2008. We conducted
 this performance audit in accordance with generally accepted government auditing standards.
 Those standards require that we plan and perform the audit to obtain sufficient, appropriate

 3
   Eligible income does not include Supplemental Security Income or pensions including government and military
 retirement pensions (including disability), or any unearned income including withdrawals from Individual
 Retirement Accounts.
 4
   The period between January and mid-April when most individual income tax returns are filed.
                                                                                                         Page 2
                  Evaluation of Planning Efforts for the Issuance of Economic
                                      Stimulus Payments



evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. The scope of this review was limited to an
assessment of the IRS’ efforts to plan for the implementation of the stimulus payments and is
based on actions taken by the IRS as of April 1, 2008. We will continue to assess the IRS’
actions as it progresses with implementation and issuance of the payments. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




                                                                                        Page 3
                       Evaluation of Planning Efforts for the Issuance of Economic
                                           Stimulus Payments




                                       Results of Review

A Number of Methods Were Used to Inform and Notify All Eligible
Individuals and Households About Stimulus Payments
Recognizing that the stimulus payments would be sent to more than 130 million households, the
IRS designed a wide-reaching media campaign. The focus was to educate individuals on the
requirements to receive the stimulus payment along with ways to receive assistance. The
campaign included:
                                                                      Despite challenges, the IRS
      •    Initiating 2,000 media contacts, public service
                                                                     notified millions of taxpayers
           announcements in both English and Spanish, and              about stimulus payment
           extensive use of the IRS’ public web site (IRS.gov)        requirements and where to
           as the source for information. The IRS also                     obtain assistance.
           released four segments on the popular Internet
           web site, YouTube.
      •    Partnering with the AARP,5 community groups, and other programs that assist retired and
           lower income individuals in an effort to spread the word that these individuals might be
           eligible for a stimulus payment.
      •    Issuing Economic Stimulus Payment Notices (Notice 1377) to more than 130 million
           taxpayers who filed a TY 2006 income tax return. These Notices were mailed March 4
           through March 21, 2008, and cost an estimated $45 million to print and mail. The Notice
           provided background information regarding the stimulus payments as well as specific
           qualifications and actions individuals would have to take to receive the payment. The
           IRS believed that it would receive significantly fewer calls to its toll-free telephone lines
           as a result of the advance Notice. The advance Notice cost approximately $0.33 per
           Notice compared to $0.71 to answer an automated telephone call and $19.46 to have an
           assistor answer a telephone call.
      •    Coordinating with the Social Security Administration and the Department of Veterans
           Affairs to identify beneficiaries who might qualify for the stimulus payment but would
           not normally have to file a tax return.
      •    Developing a new tax package, Information About Economic Stimulus Payments for
           Social Security, Veterans, and Other Beneficiaries (Package 1040A-3), and mailing it to
           more than 20 million individuals beginning on March 15, 2008. This package included a

5
    Formerly the American Association of Retired Persons.
                                                                                                 Page 4
                      Evaluation of Planning Efforts for the Issuance of Economic
                                          Stimulus Payments



        copy of the U.S. Individual Income Tax Return (Form 1040A) highlighting the simple,
        specific sections of the Form that can be filled out to qualify for the stimulus payment.
        At $0.32 per package, the IRS estimates that this new tax package cost $6.5 million to
        print and mail. The Social Security Administration has agreed to reimburse the IRS for
        about $6.4 million of the total cost.
The IRS also had to determine how to provide assistance to the anticipated thousands of
individuals who would contact the IRS with questions about the stimulus payment without
harming its service to taxpayers who were in the process of filing their annual income tax
returns. In an effort to provide timely assistance, the IRS:
    •   Established a dedicated toll-free telephone number to assist taxpayers with questions
        about the stimulus payment. As of March 29, 2008, the IRS had received 2.3 million
        calls to the automated stimulus payment telephone lines, and IRS assistors had answered
        572,000 calls about the stimulus payment.
    •   Added an Economic Stimulus Payment Calculator to IRS.gov enabling individuals to
        calculate their estimated stimulus payment.
    •   Initiated a “Super Saturday.” The IRS opened 320 Taxpayer Assistance Centers6 in all
        50 States and the District of Columbia, and IRS partner organizations operated
        approximately 400 locations, to prepare simple Forms 1040A for individuals filing a
        return solely to receive the stimulus payment.
Because Congress expected the stimulus payments to be in the hands of individuals as soon as
possible, the IRS did not have the option to delay implementation until after the 2008 Filing
Season, when its resources are already strained. As of March 29, 2008, the IRS had received
approximately 1.6 million returns (1.4 million paper and 215,000 electronic) filed only for
claiming the stimulus payment.7 It had processed approximately 500,000 of these returns
                                   through March 29, 2008. However, a backlog of
                                   stimulus-only returns existed because the IRS had to devote its
    The IRS planned to begin       resources to processing more than 37 million returns on which
 issuing stimulus payments on      refunds were owed to the taxpayers. Refund returns must be
          May 2, 2008.
                                   processed within 45 calendar days of receipt to prevent the
                                   payment of interest.
The IRS planned to issue the Understanding Your Economic Stimulus Payment Notice
(Notice 1378) to individuals with the stimulus payment amount and the approximate date the
payment will be mailed or deposited into their bank accounts beginning on April 30, 2008, and

6
  IRS offices with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
7
  The 1.6 million returns exclude an estimated 800,000 returns filed prior to the IRS separately identifying
stimulus-only returns.
                                                                                                           Page 5
                   Evaluation of Planning Efforts for the Issuance of Economic
                                       Stimulus Payments



continuing through December 2008 until all stimulus payments have been made. The IRS
planned to begin issuing stimulus payments on May 2, 2008.

Actions Were Taken to Reduce the Risk of Errors Associated With the
Filing and Processing of Stimulus-Only Returns and the Issuance of
Payments
Although the IRS’ planning for the stimulus payments was generally sufficient, we noted areas
where improvements were needed. The IRS addressed these concerns as we brought them to the
attention of management. Addressing these concerns in a timely manner helped ensure that
accurate and consistent information was provided to millions of individuals regarding
requirements for receiving the payment and helped reduce the risk of errors when stimulus-only
returns were processed and payments were issued.
Recognizing the massive undertaking that would be
required to issue stimulus payments in a timely manner,         The Executive Steering
the IRS established an Executive Steering Committee           Committee took immediate
prior to Congress’ finalizing of the Economic Stimulus       action to address most of the
                                                              concerns raised during the
Act of 2008. The Executive Steering Committee
                                                                 course of our review.
worked with IRS functions to identify actions that would
be needed to ensure smooth implementation of the Act.
The Committee also coordinated the identification of all
affected IRS functions, programs, and procedures and performed an assessment of how the IRS
would handle the additional work required to implement the stimulus payment.
During the course of our review, we obtained copies of IRS functions’ Action Plans, draft
notices, and procedures; monitored IRS.gov; and reviewed press releases, internal guidance, and
other information related to the stimulus payment. Our review of this information identified that
not all Action Plans were adequately developed, and there was no consolidated review process in
place to ensure that the information and guidance being shared internally and externally were
consistent and accurate. These concerns, if not addressed, could have increased the risk of errors
when stimulus-only returns were processed and stimulus payments were issued.

Some Action Plans were not sufficiently developed
Although the IRS recognized the need to coordinate planning for the stimulus payments across
functional lines, its planning efforts did not require all major functions that would be affected by
the issuance of stimulus payments to develop Action Plans. These Action Plans were critical
because they laid out the specific steps a function would need to take in preparation for the
issuance of stimulus payments and would be used by the Executive Steering Committee to
monitor the IRS’ implementation progress.


                                                                                              Page 6
                  Evaluation of Planning Efforts for the Issuance of Economic
                                      Stimulus Payments



Specifically, the Compliance, Electronic Tax Administration, and Submission Processing
functions did not initially prepare Action Plans. When asked why these functions did not prepare
Actions Plans, the IRS responded that the Submission Processing function’s assessment of the
Economic Stimulus Act prior to its passage indicated that no significant processing changes
would be needed. However, once the Act was passed and Social Security and Veterans benefits
were added as qualified income, the IRS realized that it would need to do significantly more to
assist individuals in filing for the stimulus payment. The Submission Processing function
subsequently developed an Action Plan in late February 2008. The IRS indicated that
development of an Electronic Tax Administration function Action Plan was secondary to the
need to immediately coordinate with its electronic filing partners (software developers, etc.).
The IRS also stated that it did not believe that it was necessary for the Compliance function to
have an Action Plan because it did not intend to change its compliance selection routines. The
Executive Steering Committee held regular conference calls with IRS functions to receive
updates on actions being taken to diminish the impact of not having Actions Plans developed.
Of the functions with no Action Plans developed initially, the Submission Processing function
will be the most affected by the stimulus payment implementation. It is responsible for
1) developing the criteria necessary to ensure that only eligible individuals receive a stimulus
payment and that the payment is computed correctly, 2) ensuring that programming changes are
completed, and 3) processing the estimated 20 million to 25 million additional stimulus-only
returns the IRS will receive as a result of the Economic Stimulus Act of 2008. All of the
preceding had to be performed while simultaneously processing nearly 140 million individual
income tax returns as part of the IRS’ annual filing season. The Executive Steering Committee
relied on regular conference calls and meetings to receive updates on actions being taken by the
Submission Processing function.
Once developed, the Submission Processing function Action Plan was vague and lacked the level
of detail needed to ensure that all critical actions would be taken. This resulted in the
Submission Processing function reacting to conditions as they arose rather than proactively
anticipating and resolving issues. For example, initial procedures for processing stimulus-only
tax returns filed via paper were unclear to employees on when to reject tax returns that did not
meet the stimulus-only return filing requirements. As a result, employees were sending returns
back to individuals if they were not marked with “stimulus only” or other similar wording. The
IRS did not anticipate that some individuals would not understand or mark their tax returns with
“stimulus only” as instructed even though they were eligible for the stimulus payment. The IRS
did not realize the weakness in its procedures until it began processing stimulus-only returns.
The procedures were subsequently modified to evaluate the information on the returns in
addition to looking for the individuals’ notations before rejecting the returns.
We also identified weaknesses in the Criminal Investigation Division’s Action Plan.
Specifically, the Action Plan did not address the need to develop processes/procedures to:


                                                                                             Page 7
                  Evaluation of Planning Efforts for the Issuance of Economic
                                      Stimulus Payments



   •   Stop stimulus payments relating to certain TY 2007 fraudulent returns for which a
       determination of fraud was made after the refunds were issued.
   •   Identify potential fraud relating to those individuals who are filing stimulus-only tax
       returns.
We are evaluating the Criminal Investigation Division’s efforts to address these concerns.

There were some inaccuracies and inconsistencies in external and internal
guidance caused by the lack of a coordinated review process
Some information being distributed externally and internally was inconsistent or incomplete.
Once the issues were raised to the Executive Steering Committee, actions were initiated to
address most of the concerns. For example:
Inconsistent Guidance
   •   Guidance provided on IRS.gov and to Taxpayer Assistance Center employees was not
       consistent. Information on the IRS web site indicated that taxpayers who were filing a
       tax return for the sole purpose of claiming the stimulus payment would only have to fill
       out a few specific items on the Form 1040A. However, instructions provided to the
       Taxpayer Assistance Center employees required the completion of additional areas of the
       Form 1040A. The IRS corrected the guidance provided to the Taxpayer Assistance
       Centers.
   •   Guidance was inconsistent between instructions in the tax package 1040A-3 and IRS
       procedures for processing stimulus-only returns. The package 1040A-3 instructs
       individuals filing a stimulus-only tax return to put their combined earned income on
       Line 7 of the Form 1040A and attach supporting Wage and Tax Statements (Form W-2).
       These instructions are silent on what the individual should do if no Form W-2 is available
       except that self-employment income can be reported on this Line if less than $400.
       However, the IRS processing procedures tell employees to send returns back to the
       individuals if this income is not supported or explained. This can result in individuals not
       receiving a stimulus payment they are entitled to because not all reported income is
       supported by proper documentation. The IRS elected not to change its processing
       procedures.
Incomplete Guidance
   •   Guidance did not inform individuals that they should not reduce their TY 2007 tax due by
       the stimulus payment amount. The IRS subsequently updated IRS.gov to advise
       taxpayers not to do this.
   •   Guidance did not contain all eligibility information. The IRS did not expand on the
       eligibility information because its Communications function was concerned that

                                                                                             Page 8
                        Evaluation of Planning Efforts for the Issuance of Economic
                                            Stimulus Payments



           taxpayers would be confused if the IRS tried to explain all the eligibility requirements. In
           addition, news articles have misstated the basic eligibility requirements, possibly as a
           result of the incomplete information available from the IRS.
       •   Guidance did not inform individuals that anyone not receiving a TY 2007 refund would
           get their stimulus payment via paper check. Subsequent to our raising this concern, the
           IRS issued guidance clarifying that individuals not receiving a TY 2007 refund could
           receive their stimulus payment by direct deposit if they included their bank account
           information on their tax return.
       •   Guidance was unclear about when individuals would receive their stimulus payment.
           Only tax returns processed by the IRS before April 15, 2008, will have stimulus
           payments issued according to the IRS’ published payment schedule. However,
           information released by the IRS implied all tax returns filed by April 15 would have
           payments issued per the schedule. The IRS subsequently released detailed information
           encouraging individuals to file early to ensure that their returns were processed by
           April 15 and clarifying that only tax returns received and processed before that date
           would have stimulus payments issued per the published payment schedule.
       •   Guidance was not initially provided to Volunteer Income Tax Assistance and Tax
           Counseling for the Elderly sites8 on how to serve individuals who ask for help with
           preparing their stimulus-only tax returns. At the time we raised this concern, the IRS was
           in the process of providing guidance to the Volunteer Income Tax Assistance and Tax
           Counseling for the Elderly sites.
In addition, we reviewed the draft tax package 1040A-3 prior to issuance and provided
comments to the IRS for its use in finalizing the package and preparing it for mailing. The IRS
incorporated all of our suggestions, except the one relating to filing status, into its efforts to
finalize the tax package and mail it to approximately 20 million individuals beginning on
March 15, 2008. Items we noted included that:
       •   The instructions told individuals to file their returns by December 1, 2008. Our concern
           was that this could confuse individuals because the normal and extended individual tax
           return filing dates are April 15 and October 15, respectively. The IRS revised the
           instructions to encourage individuals to file as soon as possible but advising that they
           must file by October 15, 2008.
       •   The instructions did not provide specific information on where to mail a stimulus-only
           tax return.
       •   The instructions were confusing on how to file for each filing status (e.g., single, married
           filing jointly).

8
    Free income tax assistance services supported by the IRS.
                                                                                                Page 9
                  Evaluation of Planning Efforts for the Issuance of Economic
                                      Stimulus Payments



   •   The instructions did not contain guidance on how to properly sign the tax return when the
       individual filing the return was represented by a guardian or other legal representative
       (e.g., individuals in nursing facilities who might be incapacitated).
Although the IRS had established an Executive Steering Committee to coordinate the planning
for the stimulus payment, each IRS function was responsible for creating and disseminating
information relative to its area of responsibility. Many of the concerns we raised could have
been prevented if information had been reviewed at a central point to ensure consistency and
completeness.
We will continue to evaluate the IRS’ implementation of the stimulus payment as it moves
forward. We have begun assessing whether stimulus payments are calculated correctly and the
IRS’ process to prevent individuals that are not entitled to receive a stimulus payment from
receiving it.




                                                                                        Page 10
                      Evaluation of Planning Efforts for the Issuance of Economic
                                          Stimulus Payments



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the IRS’ efforts to plan
and implement the 20081 economic stimulus payments. The scope of this review was limited to
an assessment of the IRS’ efforts to plan for the implementation of the stimulus payments and is
based on actions taken by the IRS as of April 1, 2008. To accomplish our objective, we:
I.      Analyzed the Economic Stimulus Act of 20082 to determine the eligibility requirements,
        how the stimulus payments are computed, and the instructions to the IRS on distributing
        the payments.
II.     Evaluated the effectiveness of the IRS’ overall planning process for issuing the economic
        stimulus payments. We met with the Executive Steering Committee and IRS executives
        to discuss how the IRS planned to implement the economic stimulus payments and
        obtained copies of functional Action Plans and meeting notes related to those Plans as
        well as notes of Executive Steering Committee meetings.
III.    Evaluated the adequacy of the IRS’ plans for educating and assisting individuals in
        ensuring that they receive the proper economic stimulus payment, including efforts to
        assist non-English-speaking individuals and those who would not otherwise be required
        to file an individual income tax return.
        A. Evaluated the IRS’ plans to inform the public and the tax preparer community about
           who is eligible for a stimulus payment and how to claim the payment, including how
           to obtain assistance from the IRS. We assessed the clarity, accuracy, completeness,
           and cost of the Economic Stimulus Payment Notice (Notice 1377) and the tax
           package Information About Economic Stimulus Payments for Social Security,
           Veterans, and Other Beneficiaries (Package 1040A-3). We also evaluated the
           accuracy, clarity, completeness, and timeliness of the information made available on
           IRS.gov.
        B. Assessed the effectiveness of the IRS’ efforts to ensure that its Taxpayer Assistance
           Centers3 and Volunteer Income Tax Assistance and Tax Counseling for the Elderly
           sites4 were able to properly educate and assist individuals on the stimulus payment.


1
  Unless otherwise noted, all dates are calendar year.
2
  Pub. L. 110-185, 122 Stat. 613.
3
  IRS offices with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
4
  Free income tax assistance services supported by the IRS.
                                                                                                          Page 11
                 Evaluation of Planning Efforts for the Issuance of Economic
                                     Stimulus Payments



         We also determined if the IRS increased its promotion of electronic filing as a
         preferred way to file for the stimulus payment.
IV.   Evaluated the effectiveness of the IRS’ Action Plans for determining the stimulus
      payment eligibility and the calculation of the payment amount to determine if the Plans
      were sufficient to ensure that stimulus payments were properly computed and issued to
      eligible individuals.
      A. Discussed the process used to develop the computer programs necessary to identify
         eligible individuals, calculate the payment amount, and issue the stimulus payment in
         a timely manner. We also reviewed applicable computer programming
         documentation to determine if planned programming would accurately identify
         eligible individuals and accurately compute the stimulus payment.
      B. Determined the steps the IRS planned to take to ensure that stimulus payments are
         paid as quickly as possible within the guidelines of the Economic Stimulus Act of
         2008. This included evaluating the IRS’ plans for issuing stimulus payments through
         direct deposit and assessing the effect that delays in processing certain individual
         income tax returns would have on the stimulus payments.
      C. Determined what additional controls the IRS planned to use to ensure that fraudulent
         or otherwise erroneous attempts to receive a stimulus payment are identified. We
         also evaluated planned controls to determine if they were sufficient to minimize the
         risk of fraud or significant error.
V.    Identified the processes the IRS planned to use to track the stimulus payments, including
      implementation costs.




                                                                                           Page 12
                 Evaluation of Planning Efforts for the Issuance of Economic
                                     Stimulus Payments



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Russell Martin, Director
Deann Baiza, Audit Manager
John Hawkins, Lead Auditor
Sharla Robinson, Lead Auditor
Kathleen Hughes, Senior Auditor
Steven Stephens, Senior Auditor
Jennie Choo, Auditor




                                                                                   Page 13
                 Evaluation of Planning Efforts for the Issuance of Economic
                                     Stimulus Payments



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Chief, Criminal Investigation Division SE:CI
Director, Communications and Liaison, Wage and Investment Division SE:W:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation ad Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 14
     Evaluation of Planning Efforts for the Issuance of Economic
                         Stimulus Payments



                                                      Appendix IV

Management’s Response to the Draft Report




                                                             Page 15
Evaluation of Planning Efforts for the Issuance of Economic
                    Stimulus Payments




                                                        Page 16
